                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Close-Out of Complaint on
                    Metropolitan Water Reclamation
                    District of Greater Chicago
                    Incurring Inappropriate Expenses
                    on Recovery Act Projects

                    Report No. 12-X-0090               November 22, 2011




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Bill Spinazzola
                                                   Patrick McIntyre
                                                   Michael Rickey




  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov.                     write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-X-0090
                                                                                                    November 22, 2011
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Close-Out of Complaint on Metropolitan Water
                                    Reclamation District of Greater Chicago Incurring
We received a complaint that        Inappropriate Expenses on Recovery Act Projects
the Metropolitan Water
Reclamation District of Greater
                                     What We Found
Chicago may have used
noncompetitive practices when
                                    Our review did not disclose any indication of misuse of funds provided to the
procuring bond underwriting
                                    district by Illinois’ CWSRF loans or Recovery Act funds provided through EPA.
contracts and incurred
                                    The types of costs mentioned in the complaint were not included in the amounts
excessive or inappropriate
                                    paid to the district by the CWSRF. According to state personnel, most, if not all,
expenses on American
                                    of the funding administered through the CWSRF was for construction-related
Recovery and Reinvestment
                                    expenses. The CWSRF and Recovery Act funds did not pay for professional
Act of 2009 (Recovery Act)-
                                    services contracts or other administrative costs such as training, travel,
funded projects.
                                    entertainment, or conference expenses.
Background
                                    Since we did not find any indication that the district misused CWSRF or
According to the U.S.               Recovery Act funds, we have closed the complaint and plan no further action on
Environmental Protection            this matter.
Agency (EPA), Region 5, the
State of Illinois used a
combination of Clean Water
State Revolving Fund
(CWSRF) and Recovery Act
funds to provide $20 million
for four district projects. The
Recovery Act provided
$10,000,001 of the total
$20 million. The Recovery Act
funding consisted of
$5,000,002 in principal
forgiveness and $4,999,999 in
loans. The CWSRF portion was
also a loan.


For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20111122-12-X-0090.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                           THE INSPECTOR GENERAL




                                      November 22, 2011

MEMORANDUM

SUBJECT:	 Close-Out of Complaint on Metropolitan Water Reclamation District of
          Greater Chicago Incurring Inappropriate Expenses on Recovery Act Projects
          Report No. 12-X-0090


FROM:         Arthur A. Elkins, Jr.
              Inspector General

TO:           Susan Hedman
              Regional Administrator, Region 5


We have closed the complaint that the Metropolitan Water Reclamation District of Greater
Chicago may have used noncompetitive practices when procuring bond underwriting contracts
and incurred excessive or inappropriate expenses on American Recovery and Reinvestment Act
of 2009 (Recovery Act)-funded projects. We concluded that U.S. Environmental Protection
Agency (EPA) funds were not used for any of the expenses in question. We also referred
questions about the Build America Bond program to the Treasury Inspector General for Tax
Administration.

To assess the complaint, we performed the following procedures:

     Interviewed personnel from Region 5, the Illinois Environmental Protection Agency, and
      the district
    Obtained a list of the funding that the district had received from the Illinois Clean Water
      State Revolving Fund (CWSRF) since July 2005
   	 Determined whether the amounts paid for with CWSRF or Recovery Act funds included
      any costs for contracts with bond underwriters and/or financial advisors, training
      expenses, travel and entertainment expenses, or conferences

Our review did not disclose any indications of misuse of funds provided to the district by the
CWSRF loans or Recovery Act funds provided through EPA. The types of costs mentioned in
the complaint were not included in the amounts paid to the district by the CWSRF. According to



12-X-0090                                                                                          1
personnel at the Illinois Environmental Protection Agency, most, if not all, of the funding
administered by the CWSRF was for construction-related expenses. The CWSRF did not fund
professional services contracts, or other administrative costs such as training, travel,
entertainment, or conference expenses.

According to Region 5, the CWSRF funded 16 district projects since 2005 with either loans or a
combination of loans and principal forgiveness. Four of the 16 projects included funding
authorized by the Recovery Act. Total CWSRF loans for the four projects were $20,000,000.
The Recovery Act provided $10,000,001 of the total $20 million. The $10,000,001 in Recovery
Act funding consisted of $5,000,002 in principal forgiveness and $4,999,999 in loans. We
reviewed reimbursement claims for the four Recovery Act-funded loans. As of the dates of our
review, June 21 and June 22, 2011, total claims for reimbursement were $18,485,500. None of
the four projects we reviewed included expenses for bond underwriters, financial advisors,
travel, entertainment, training, or conferences. The amounts reimbursed included only
construction costs and associated construction contingency.

The district issued capital bonds under the Recovery Act’s Build America Bond program. Under
this program, the U.S. Treasury will reimburse government agencies for 35 percent of their
interest expense on the bonds. On April 29, 2010, the District received notice of an informal
inquiry relating to the 2009 Bonds by the United States Securities and Exchange Commission
(SEC). The SEC requested production of all documents related to the issuance and sale of the
2009 Bonds. Further, on September 24, 2010, the Internal Revenue Service notified the district
of a routine examination of Build America bonds issued by the district during 2009 to determine
compliance with federal tax requirements. Since the Build America Bond program is outside our
authority to review, we referred questions about this program to the Treasury Inspector General
for Tax Administration for consideration.

We provided a draft copy of this memorandum to the Illinois Environmental Protection Agency,
Infrastructure Financial Assistance Section, and the Metropolitan Water Reclamation District of
Greater Chicago for review. Both organizations agreed with the contents of the memorandum.

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Product Line Director, at
(415) 947-4537 or adachi.robert@epa.gov.




12-X-0090                                                                                          2
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-X-0090                                                                                                                              3
                                                                                 Appendix A

                                     Distribution
Regional Administrator, Region 5
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Region 5
Public Affairs Officer, Region 5
Manager, Infrastructure Financial Assistance Section, Illinois Environmental Protection Agency
Executive Director, Metropolitan Water Reclamation District of Greater Chicago
General Counsel, Metropolitan Water Reclamation District of Greater Chicago




12-X-0090                                                                                        4
